     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106




April 27, 2010

Report Number: A-07-09-01078

Mr. Charles J. Krogmeier
Director
Iowa Department of Human Services
Hoover State Office Building, Fifth Floor
1305 East Walnut Street
Des Moines, IA 50319-0114

Dear Mr. Krogmeier:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Iowa Medicaid Payments for Home Health Agency
Claims Paid to Ultimate Nursing Services of Iowa, Inc. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Chris Bresette, Audit Manager, at (816) 426-3201 or through email at
Chris.Bresette@oig.hhs.gov. Please refer to report number A-07-09-01078 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Charles J. Krogmeier

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




   REVIEW OF IOWA MEDICAID
  PAYMENTS FOR HOME HEALTH
AGENCY CLAIMS PAID TO ULTIMATE
 NURSING SERVICES OF IOWA, INC.




                       Daniel R. Levinson
                        Inspector General

                           April 2010
                         A-07-09-01078
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Iowa, the Department of Human Services
(State agency) administers the State’s Medicaid program in accordance with its CMS-approved
State plan.

A home health agency (HHA) provides skilled nursing services, home health aide services, and
medical supplies and equipment to Medicaid recipients. Iowa Administrative Code 441–78.9(1)
requires a physician to authorize these services on a plan of care, in advance and at a minimum
reviewed every 62 days thereafter. Iowa Administrative Code 441–79.3(2) requires that HHAs
maintain medical records supporting all services performed. HHAs submit claims to the State
agency in order to receive compensation for the services they provide to Medicaid recipients.

The State agency then submits to CMS its Medicaid expenditures for the Federal share of its
claimed costs. As part of its monitoring responsibilities to ensure that it pays medical claims
pursuant to Federal and State requirements, the State agency had a process in place whereby it
reviewed medical claims, including some HHA claims, on a postpayment basis in order to detect
and recover improper payments. In January 2009, the State agency strengthened its internal
controls regarding HHA claims, so that going forward it would randomly select and review 165
paid HHA claims each month.

Ultimate Nursing Services of Iowa, Inc. (Ultimate), is an HHA based in Waukee, Iowa. For the
period April 1, 2008, through March 31, 2009, the State agency claimed $6,278,195 ($4,092,355
Federal share) for HHA services that Ultimate provided.

OBJECTIVE

Our objective was to determine whether the State agency claimed costs for HHA services
provided by Ultimate in accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency claimed some costs for HHA services provided by Ultimate that were not in
accordance with Federal or State requirements. Our review of the 100 claims in our sample
showed that 30 claims had errors (1 claim had two types of errors) totaling $8,985 ($5,797
Federal share) of improper Medicaid reimbursement. The errors included 22 claims with
unsupported services, 7 claims with unauthorized services, and 2 claims for which a billed
service was not rendered.



                                               i
Based on the results of our sample, we estimated that the State agency improperly claimed
$56,825 ($37,681 Federal share) for HHA services provided by Ultimate that did not comply
with Federal and State requirements. Although the State agency had a process in place to
monitor some HHA claims on a postpayment basis, and although (as discussed earlier) the State
agency enhanced this process in January 2009, these internal controls and related measures did
not prevent the overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $37,681 to the Federal Government for unallowable HHA services claims and

   •   continue to strengthen internal controls to detect and recover improper payments for
       HHA services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take. The State
agency’s comments appear in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program and Home Health Agency Services ......................................1
              Iowa Department of Human Services ..................................................................1
              Iowa Home Health Agency Services ...................................................................2
              Ultimate Nursing Services of Iowa, Inc. ..............................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

          UNALLOWABLE HOME HEALTH AGENCY SERVICES....................................... 4
              Unsupported Services ......................................................................................... 4
              Unauthorized Services ........................................................................................ 4
              Billed Services Not Rendered ............................................................................. 5

          UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT ........................... 5

          RECOMMENDATIONS .................................................................................................5

          STATE AGENCY COMMENTS ....................................................................................5

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program and Home Health Agency Services

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1905 of the Act authorizes State Medicaid agencies to provide home health agency
(HHA) services to Medicaid recipients. Pursuant to 42 CFR § 440.70, these services include
skilled nursing services, home health aide services, and medical supplies and equipment. In
addition, the HHA services may also include physical therapy, occupational therapy, or speech
pathology and audiology services.

Iowa Department of Human Services

In Iowa, the Department of Human Services (State agency) administers the State’s Medicaid
program. During the period April 1, 2008, through March 31, 2009 (our audit period), the State
agency paid approximately 134,000 Medicaid claims for HHA services.

The responsibilities of the State agency include processing and monitoring HHA claims. As part
of its monitoring responsibilities to ensure that it pays medical claims pursuant to Federal and
State requirements, the State agency had a process in place whereby it reviewed medical claims,
including some HHA claims, on a postpayment basis in order to detect and recover improper
payments. In January 2009, the State agency strengthened its internal controls regarding HHA
claims, so that going forward it would randomly select and review 165 paid HHA claims each
month.

On a quarterly basis, the State agency submits to CMS its standard Form CMS-64, Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64 report), to
summarize, by category of service, Medicaid expenditures for Federal reimbursement. CMS
reimburses the State agency the Federal share of the State agency’s claimed costs, based on the
Federal medical assistance percentage (FMAP). The State of Iowa’s FMAP for the period
April 1, 2008, through September 30, 2008, was 61.73 percent. The American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted February 17, 2009,
authorized the States to receive a higher FMAP. For the period October 1, 2008, through
March 31, 2009, the State of Iowa’s FMAP was increased to 68.82 percent under the provisions
of the Recovery Act.




                                               1
Iowa Home Health Agency Services

Iowa Administrative Code 441–78.9(1) requires a physician to authorize HHA services on a plan
of care, in advance and at a minimum reviewed every 62 days thereafter. Specifically, the HHA
must complete, for each Medicaid recipient, a plan of care that supports the medical necessity
and intensity of services to be provided.

HHAs submit claims to the State agency in order to receive compensation for the services they
provide to Medicaid recipients. According to Iowa Administrative Code 441–78.9, payments for
HHA claims are made on an encounter basis, defined as separately identifiable hours in which
the HHA staff provided continuous service to the recipient. (Payment for private duty nursing or
personal care services for persons aged 20 and under is made on the basis of hourly units of
service.) Iowa Administrative Code 441–79.3(2) requires that HHAs maintain complete and
legible medical records supporting all services performed. HHAs submit claims covering a
period of time to the State agency; each claim may contain multiple types of service.

For the period April 1, 2008, through March 31, 2009, the State agency claimed $90.2 million
($58.9 million Federal share) for all HHA services.

Ultimate Nursing Services of Iowa, Inc.

Ultimate Nursing Services of Iowa, Inc. (Ultimate), is an HHA based in Waukee, Iowa, that
operates three separate locations in Waukee, Carroll, and Newton, all in Iowa. For the period
April 1, 2008, through March 31, 2009, the State agency claimed $6,278,195 ($4,092,355
Federal share) for HHA services that Ultimate provided.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs for HHA services
provided by Ultimate in accordance with Federal and State requirements.

Scope

We reviewed claims for HHA services totaling $6,278,195 1 ($4,092,355 Federal share) that
Ultimate received from the State agency as reimbursement for the period April 1, 2008, through
March 31, 2009.

We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. We limited our internal control review to those controls related directly
to processing and monitoring HHA claims.



1
 The individual claim totals for each location were as follows: Waukee ($2,870,344), Carroll ($2,156,691), and
Newton ($1,251,160).


                                                        2
We conducted our fieldwork from September through October 2009 at the State agency and at
Ultimate’s Waukee, Iowa, location.

Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws, regulations, and other requirements regarding Medicaid
       reimbursement for HHA services, as well as the Iowa State plan,

   •   interviewed officials at the State agency to gain an understanding of how they administer
       and monitor the HHA Medicaid program;

   •   reconciled the State agency’s electronic claims data, which included claims for Ultimate,
       to the CMS-64 reports for the period April 1, 2008, through March 31, 2009;

   •   selected a simple random sample of 100 HHA claims from Ultimate, totaling $377,916
       ($245,560 Federal share);

   •   obtained and reviewed the supporting documentation for each sampled claim to
       determine the allowability of the claim; and

   •   provided the results of our review to officials from Ultimate on September 28, 2009, and
       discussed those results with State agency officials on October 28, 2009.

Appendixes A and B contain details of our sampling and projection methodologies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency claimed some costs for HHA services provided by Ultimate that were not in
accordance with Federal or State requirements. Our review of the 100 claims in our sample
showed that 30 claims had errors (1 claim had two types of errors) totaling $8,985 ($5,797
Federal share) of improper Medicaid reimbursement. The errors included 22 claims with
unsupported services, 7 claims with unauthorized services, and 2 claims for which a billed
service was not rendered.

Based on the results of our sample, we estimated that the State agency improperly claimed
$56,825 ($37,681 Federal share) for HHA services provided by Ultimate that did not comply
with Federal and State requirements. Although the State agency had a process in place to
monitor some HHA claims on a postpayment basis, and although (as discussed earlier) the State


                                               3
agency enhanced this process in January 2009, these internal controls and related measures did
not prevent the overpayments.

UNALLOWABLE HOME HEALTH AGENCY SERVICES

Unsupported Services

The CMS State Medicaid Manual, section 2500.2(A), requires that the State agency “[r]eport
only expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and which is immediately available when the claim is filed.” (Emphasis in original.)

Further, Iowa Administrative Code 441–79.3(2) states: “A provider of service shall maintain
complete and legible medical records for each service for which a charge is made….”

For 22 of the 100 sampled claims, the State agency did not claim some costs for HHA services
pursuant to Federal and State requirements. For these 22 claims, Ultimate did not maintain
medical records supporting services billed to the State agency.

For 1 of these 22 claims, Ultimate billed 4 units of skilled nursing services but was unable to
provide us with any documentation to support the services billed.

Unauthorized Services

Pursuant to 42 CFR § 440.70, HHA services are provided to a recipient at his or her place of
residence under a physician’s orders as a part of a written plan of care.

Iowa Administrative Code 441–78.9 states that payment shall be approved for “medically
necessary home health agency services prescribed by a physician in a plan of home health
care….” Additionally, Iowa Administrative Code 441–78.9(1) states that the plan of care shall
support the medical necessity and intensity of services to be provided by showing, among other
things, the type and frequency of the services to be rendered.

For 7 of the 100 sampled claims, the State agency did not claim some costs pursuant to these
Federal and State requirements. Specifically, the State agency paid Ultimate for services (a) that
were not included on the recipient’s plan of care or (b) for which the frequency of the services
provided exceeded the limits prescribed on the recipient’s plan of care.

For one of these seven claims, Ultimate provided 34 home health aide visits that were not
authorized on the plan of care. In another claim, Ultimate provided 17 hours of service in excess
of authorized limits.




                                                 4
Billed Services Not Rendered

Iowa Administrative Code 441–78.9(7) states:

       Payment shall be made for unskilled services provided by a home health aide….
       Certain household services may be performed by the aide in order to prevent or
       postpone the member’s institutionalization when the primary need of the member
       for home health aide services furnished is for personal care. If household services
       are incidental and do not substantially increase the time spent by the aide in the
       home, the entire visit is considered a covered service. Domestic or housekeeping
       services which are not related to patient care are not a covered service if personal
       care is not rendered during the visit.

For 2 of the 100 sampled claims, the State agency improperly claimed costs for home health aide
services. For one claim, the supporting documentation showed that the home health aide did not
provide any services. For the other claim, Ultimate provided housekeeping services without
rendering personal care services, which is contrary to Iowa Administrative Code 441–78.9(7).

UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT

Of the 100 HHA claims in our sample, 30 had errors totaling $8,985 ($5,797 Federal share) of
improper Medicaid reimbursement. Based on the results of our sample, we estimated that the
State agency improperly claimed $56,825 ($37,681 Federal share) for HHA services provided by
Ultimate that did not comply with Federal and State requirements.

Although the State agency had a process in place to monitor some HHA claims on a postpayment
basis, and although (as discussed earlier) the State agency enhanced this process in January 2009,
these internal controls and related measures did not prevent the overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $37,681 to the Federal Government for unallowable HHA services claims and

   •   continue to strengthen internal controls to detect and recover improper payments for
       HHA services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take. The State
agency’s comments appear in their entirety as Appendix C.




                                                5
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of claims representing home health agency (HHA) services provided
by Ultimate Nursing Services of Iowa, Inc. (Ultimate), for claims paid for the period
April 1, 2008, through March 31, 2009.

SAMPLING FRAME

The sampling frame is a database of claim records consisting of 1,617 claims totaling $6,278,195
($4,092,355 Federal share) for home health services paid to the provider Ultimate Nursing
Services of Iowa during the period of April 1, 2008 through March 31, 2009.

SAMPLE UNIT

The sampling unit is one Medicaid paid claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units (paid claims).

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software (RAT-STATS).

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the unallowable payments for home health services. Because
of the significant increase in the Federal medical assistance percentage rate provided under the
American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, we made separate
estimations for the total unallowable costs and for the Federal share of those unallowable costs.
                APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                      SAMPLE RESULTS

                                                            Number With          Value of
                                 Sample         Value of    Unallowable         Unallowable
Frame Size    Frame Value         Size           Sample      Payments            Payments
  1,617        $6,278,195          100          $377,916        30                $8,985

                       ESTIMATES OF UNALLOWABLE PAYMENTS
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                                              Total Estimated
                              Total Estimated               Unallowable Payments
                            Unallowable Payments               (Federal Share)
    Point estimate                $   145,286                     $    93,738
    Lower limit                   $    56,825                     $    37,681
    Upper limit                   $   233,747                     $   149,795
                                                                                                        Page 10f5


                       APPENDIX C: AUDITEE COMMENTS 





                                                               STATE OF IOWA
CHES TER J. CU LVER , GOVERNOR                                    DEPARTMENT OF HUMAN SERVICES
PATTY JUDGE, LT. GOVERNOR                                                CHARLES J. KROGMEIER, DIRECTOR


    MAR 2 4 1010
   Patrick J. Cogley
   Regional Inspector General for Audit Services
   Officc of Inspector General
   Region VII
   60 1 East 12111 Street, Room 284A
   Kansas City, MO 64106

   RE: 	 Review of Iowa Medicaid Payments for Home Health Agency Claims Paid to:
         Iowa Horne Cllre, LLC: Report Number: A-07-09-01070 and
         Ultimate Nursing Services or low!!, Inc: Report Number: A-07-09·01078

   Dear Mr. Cogley:

   Enclosed please find comments from the Iowa Department of Human Services (DHS) on the
   February 23. 20 J 0 draft reports concerning Office of Inspector General's (DIG) audits of Iowa
   Medicaid payments for Home Health claims paid 10: Iowa Home Care, LLC and Ultimate
   Nursing Serviccs of Iowa, Inc .

   DHS appreciates Ihl! opportunity 10 respond to the draft reports and provide addilional comments
   to be incl uded in the final report. Questions about the attached response can be addressed to:

          Ken Tigges, Exccuti ve Officer
          Division of Fiscal Management
          Iowa Department of Human Services
          Hoover State Office Building, l ,t Floor South
          Des Moines, IA 50319-0114
          Ema il : ktigges@dhs.state.ia.us
          Phone: 515-281-6027

   I Wlderstand that this response will be summarized in thc body of the final rcport and be included
   in its entirety as an appendix.

   Sincerely.

  hW-~                                           

  ~s J. Krogmeler
   Director

   CJK:lc:sn



                        1305 E WALNUT STREET _ DES MOINES. IA 50319-0114
                                                                                                      Page 20f5




                                                - 2­



                      IOWA DEPARTMENT OF' UUMAN SERVICES
                         RESPONSE TO OIG DRAFT REPORTS


                AUDIT OF IOWA MEDICAID PAYMENTS FOR
                HOME HEALTH AGENCY CLAIMS PAID TO:
          IOWA nOME CARE, LLC (Audit Report Number: A-07-09-01070)
                                 AND
     ULTIMATE SERVICES OF IOWA, INC (Aud it Report Number: A-07-09-01078)



General Comments

Horne Health agencies provide a valuable service to Iowa's Medicaid Members. Home Health
care is a medically necessary service that su pports the aged and individuals with disab ilities to
remain in their homes rathe r an institutional level of care. On February 23, 20 I 0, the Office of
Inspector General (OIG) provided the Iowa Department of Human Services (DHS) two draft
audit repons, covering the period from April I , 2008 through March 31 , 2009, for Iowa's
Medicaid payments for Home Health claims paid to:
    I. 	 Iowa Home Care, LLC (Iowa Home Care)
    2. 	 Ultimate Nursing Service of Iowa, Inc (Ultimate NurSing Services)

OIG Findings

In both audits, 010 found three types of claiming errors:
    I. 	 Unsupported Services ·· documentation in the medical record was not sufficient to
         support the claimed service
    2. 	 Unauthorized Services·· claimed services were either not providcrl in a recipient'S place
         of residence or consistent with the physician's order as documented in a wri tten plan of
        core
    3. 	 Billed Services Not Rendered _. claimed unskilled services, such as housekeeping, were
         rcnrlered. but not clcarly related to patient care or in conj unction with personal care
         services during the same visit as required to be claimable.

Iowa Home Care

DIG reviewed 100 randomly sampled claims for services provided by Iowa Home Care and
found that nine claims had errors (one claim had two types of errors). Four claims were for
unsupported services, four were for unauthorized services, and two c laims were billed for
unskilled services that were rendered, but not related to patient care or in conjunction with
personal care services during the same visit as required to be claimable.
                                                                                                     Page 30f5




                                               -J­

Ultimate Nursing Services

Of the 100 randomly !klmpled service claims from Ultimate Nursing Services, 0 10 found that
thirty claims had errors (one had two types o f errors). Twenty-two claims were for unsupported
services, seven for unauthorized services, and two claims billed services thaI were not rendered.

Response to Findings

DHS concurs with the 0 10 fi ndings. Program improvements have been implemented and
additional improvements are planned as specified in the fo llowing.

Program Improvements Already Implemented

   Since January 2009, DH S has strengthened its internal controls regarding Home Health
   claims. Referred to as the Retrospective Review process, on a monthly basis DHS randomly
   selects and reviews 165 post-payment home health claims for accuracy and compliance with
   requirements, If errors are found , DHS pursues paymcnt recou pment.

Program Improvements Planned
   • 	 Individualized letters, outlining the findings and demanding reimburscment of the 010
       calculated improper payment, will be sent to Iowa Home Health and Ultimate Nursing
       Services.
   • 	 An informational lener will be provided to all enrolled home health agency providers
       summarizing the audit fi ndings and corrective actions.
   • 	 The Iowa Medicaid Enterprise (IME) Provider Services Unit, as part of their annual
       provider training, will offer a home health training module al eight sites across the State
       beginning in June 20 10. The components of this training module will include:
           o 	 Information to di fferentiate between the separate home health programs in the
               State
           o 	 The hierarchy of program access
           o 	 Home health service (cl inical record) documentation requirements
           o 	 Accurate billing codes and procedures
           o 	 Sununary of the retrospective review process for home health services duri ng the
               initial year of implementation including identification of the major reasons for
               recoupment.
           o 	 Summary of the 010 home health review and audit findings.
   • 	 The home health training module will also be avai lable via webinar on the IME website
       following the conclusion of the statewide training for future provider reference.
   • 	 The IME Surveillance and Uti lization Review (SURS) Unit has a regular process to
       review each provider type on an arumal bases. For calendar year 201 0, and ongoing, the
        number of home health agency reviews wi ll increase by 25%.
                                                                                                          Page 40f5




                                                -4­


OIG RecommcndatioD

Refund $13,190 to the Federal Government for unallowable Medicaid Home Health service
claiming from Iowa Home Care, LLC

Response to Recommendation

DHS concurs with thc reconuncndation and upon issuance or the final repo rt will work with the
Kansas City Regional eMS office to make the necessary adj ustment to refund $13,190 to Ihc
Federal Government.

DIG Recommendation

Refund $37,681 to the Federal Government for unallowable Medicaid Home Health service
claiming from Ultimate Nursing Services of Iowa.

Response to Recommendation

DHS concurs with the recommendation and upon issuance of the final report will work with the
Kansas City Regional eMS office 10 make the necessary adj ustment to refund $37,681 10 thc
Federal Government.

OIG Recommendation

Continue to strengthen internal controls to de tect and recover improper payments for Medicaid
Home Health scrvices.

Response to Recommendation

DHS concurs with the recommendation and will continue Ihe corrective action as articulated in
the Program Improvements Already Made and will implement corrections as stated in the
Program Improvemems Plamled section of this response.

Further DHS Corrective Actions

The DHS iME routinely determines whether provider claiming or docume ntation practices
fo llow Medicaid requiremcnts. Whcnever significant claiming or docume ntation practice errors
are found, pertinent provider sanctions are applied. Due to Ultimate Nursing Serviccs'
significantly high error rate (i.e., 30% of claims audited had errors), fu rther corrective actions are
planned.

DHS JME Program Integrity staff will implemcnt the following sanction on Ultimate Nursing
Services: "One hundred percenl review of/he provider's claims prior 10 payment " pursuant to
                                                                                                  Page 5 0[5




                                              -5­


441 lAC 79.2(3)g. The sanction will begin the month following OIG's issuance of the final audit
report.

This level of oversight will verify Ultimate Nursing Services' compliance with documentation
and claiming requirements. DHS IME will reserve the right to indefinitely impose this sanction
or impose a more serious and restricted sanction should Ultimate's claim error rate not be
reduced.

To comply with this sanction, Ultimate Nursing Services must submit to the IME Surveillance
and Utilization Review Services (SURS) Unit a copy of the Medicaid Home Health service case
note that supports each claim or invoice submitted for payment. The IME SURS Unit will
review the documentation and any claim not appropriately supported will be rejected as not
eligible for payment. In addition, any documentation which does not meet the requirements of
441 lAC 79.3(249A) or standard claims processing requirements will be deemed null and void
and the respective claim not eligible for payment.
